office of inspector
general seal




       WILLIAM WILBERFORCE TRAFFICKING VICTIMS 

       PROTECTION REAUTHORIZATION ACT OF 2008 



             U.S. Agency for International Development 

                    Office of Inspector General 

                        Report to Congress 





                      photo of young
                      lady making a
                      straw basket




                              January 15, 2010
Cover photo: The Baan Kredtrakarn shelter in Bangkok, Thailand, houses victims of trafficking and
other forms of abuse and provides them with counseling and vocational training in crafts such as
basket-weaving. Photo courtesy of Kay Chernush for the U.S. State Department.
Introduction

We prepared this report pursuant to the reporting requirements set forth in subtitle D, section 232,
of the William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 (act).
This act became Public Law 110–457 on December 23, 2008, and it requires the Office of
Inspector General (OIG) to provide specified congressional committees with a summary of our
investigative and audit activities over the previous year that involved trafficking in persons. We
originally transmitted the information in this report to congressional committees on January 15,
2010.

Summary of OIG Activities

Under the act, OIG is required to examine a sample of contracts containing a heightened risk that
a contractor may engage in acts related to trafficking in persons. We examined U.S. Agency for
International Development (USAID) contracts in Afghanistan and Iraq that we deemed to be at
heightened risk because they relied on low-skilled or unskilled workers and employed a
significant proportion of third-country nationals and women. In Afghanistan we reviewed two
primary contracts and two subcontracts on which USAID had expended $322 million during
fiscal year 2009, and in Iraq we reviewed contracts with two firms totaling $8.7 million. We
examined program materials, interviewed managers and employees, and inspected living
conditions in both countries. We found no instances of trafficking in persons, and we concluded
that contractors and subcontractors had generally instituted appropriate anti-trafficking-in-person
controls. However, we determined that one USAID contractor in Iraq could do more to notify
employees of the U.S. Government’s zero-tolerance policy related to trafficking in persons. As a
result of our review, USAID/Iraq required this contractor to strengthen its procedures in this
regard.

We also conducted a survey of Millennium Challenge Corporation (MCC) policies and
procedures related to trafficking in persons and reviewed nine MCC contracts in five countries
totaling more than $221 million. We found that MCC had instituted processes to identify,
address, and guard against forced labor, child labor, and other forms of trafficking in persons and
noted that MCC contracts included clauses that would allow the contracts to be terminated if
trafficking in persons occurred. However, we believe that MCC should establish written policies
and procedures to improve its practices in this area. According to MCC officials, its funds are not
subject to the Trafficking Victims Protection Act of 2000, as amended, but MCC is complying
with the spirit of the legislation. However, MCC has not developed policies and procedures
regarding actions it plans to take when countries are included on the Special Watch list under the
act. We documented this observation in a letter to the MCC Chief Executive Officer, and MCC
informally concurred with our assessment. We expect to publish our final report on the subject
later this month and anticipate that our related recommendations will help MCC strengthen its
controls in this area.

We performed one additional audit related to trafficking in persons during the previous year. In
December 2009, we completed a performance audit of USAID’s Counter Trafficking in Persons
Project in Cambodia. The USAID Mission in Cambodia’s $7.3 million Counter Trafficking in
Persons Project is intended to protect human trafficking victims, increase prosecution of human
traffickers, coordinate targeted prevention and awareness-raising activities, and assist with the
reintegration of trafficking victims into Cambodian society. We determined that the project had
completed or substantially completed 32 of 37 intended activities, such as hosting provincial
forums to promote awareness of trafficking and increase awareness of other economic
opportunities available to vulnerable populations, and developing training for Cambodian law


                                                                                              1

enforcement officials on human trafficking and sexual exploitation law. However, because
needed data had not been gathered or used by the Agency, we could not establish whether project
activities had been appropriately targeted or implemented in an efficient or effective way, or
whether the project was on track to achieve its goals.

Neither the cooperative agreement recipient nor the mission had used baseline data on the scope
or distribution of human trafficking in Cambodia to shape project activities. Nor had they
established results-oriented targets or indicators to assess program progress. Moreover, although
the project aims to increase prosecution of human traffickers, Cambodia experienced a significant
drop in the number of reported prosecutions and convictions of this kind in the past year. While
declines in these areas may be attributable to data tracking and reporting limitations, they
contributed to the Department of State’s downgrading of Cambodia from Tier 2 to Tier 2 Watch
List country status in its annual Trafficking in Persons report. We made three recommendations
to address these issues:

•	 Implement a national data collection system to establish baseline data on trafficking victims

•	 Develop indicators and targets to measure progress toward project goals

•	 Develop and implement a plan to improve trafficking case arrest, prosecution, and conviction
   tracking

The USAID Mission in Cambodia generally agreed with our recommendations and was in the
process of implementing them when our report issued.

We did not refer any cases for prosecution for trafficking-in-persons violations in 2009, nor did
USAID or MCC terminate any grants, contracts, or cooperative agreements during the year as a
result of our trafficking-in-persons assessments.




                                                                                                   2
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Avenue NW 

          Washington, DC 20523 

            Tel.: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
